                     Duval County Public Schools
                         1701 Prudential Drive
                      Jacksonville, Florida 32207


National Science Foundation Cooperative Agreement Number ESR-9727647

                          Financial Schedule

                                  and

                     Independent Auditors' Reports


           For the Period September 1, 1998 to June 30, 2001
          SECTION I

INTRODUCTION AND AUDIT RESULTS
          SECTION II

INDEPENDENT AUDITORS' REPORTS
8
9
(b)   are adequately supported with documentation bearing proper approvals and
      evidencing that the purpose of the expenditure was in accordance with the terms of
      the award;

(c)    adequately identify the source and application of funds provided for financially-
      assisted activities; and

(d)   show how the value of each claimed cost was derived.
    SECTION III

FINANCIAL SCHEDULE
This page has been redacted
AWARDEE RESPONSE
18
